U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 10, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Altera Corporation & Subsidiaries v. Commissioner of Internal Revenue,
S.Ct.No. 19-1009

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 10,
2020, and placed on the docket on February 13, 2020. The government's response is due on
March 16, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 15, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19- 1009
ALTERA CORPORATION & SUBSIDIARIES
COMMISSIONER OF iNTERNAL REVENUE

GINGER D. ANDERS
MUNGER, TOLLES & OLSON LLP
1155 F. STREET NW
WASHINGTON, DC 20004
202-220-1107
GINGER.ANDERS@MTO.COM
DONALD M. FALK
MAYER BROWN LLP
3000 EL CAMINO REAL
SUITE 300
PALO ALTO, CA 94306
650-331-2000
DFALK@MAYERBROWN.COM
JOSEPH R. GUERRA
SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, DC 20005
202-736-8000
JGUERRA@SIDLEY.COM
THOMAS KITTLE-KAMP
MAYER BROWN LLP
71 S. WACKER DRIVE
CHICAGO, IL 60606
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K STREET, NW
WASHINGTON, DC 20005
202-736-8000
CPHILLIPS@SIDLEY.COM

NICOLE A. SAHARSKY
MAYER BROWN LLP
1999 K STREET NW
WASHINGTON, DC 20006
202-263-3052
NSAHARSKY@MAYERBROWN.COM
DAVID B. SALMONS
MORGAN, LEWIS & BOCKIUS LLP
1111 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20004
202-373-6283
DAVID.SALMONS@MORGANLEWIS.COM
MELISSA ARBUS SHERRY
LATHAM & WATKINS LLP
555 11TH STREET, NW
SUITE 1000
WASHINGTON, DC 20004
202-637-2200
MELISSA.SHERRY@LW.COM
CHRISTOPHER J. WALKER
THE OHIO STATE UNIVERSITY
469 DRINKO HALL
55 WEST 12TH AVENUE
COLUMBUS ,OH 43210-1391
614-247-1898
WALKER. l432@OSU.EDU
A. DUANE WEBBER
BAKER & MCKENZIE
815 CONNECTICUT AVE., N.W.
WASHINGTON, DC 20006
202-452-7040
DUANE.WEBBER@BAKERMCKENZIE.COM

MARK R. YOHALEM
MUNGER TOLLES & OLSON LLP
350 S. GRAND AVENUE
LOS ANGELES, CA 90071

